CERTIFICATE OF SERVICE
NO. 20-1076
SE Property Holdings, LLC
Petitioner,
v.
Jerry Dewayne Gaddy
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JERRY
DEWAYNE GADDY BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by
Fedex 2-Day, prepaid for deliveryto the following address.
Richard Mark Gaal
McDowell Knight Roedder & Sledge, LLC
P.O. Box 350
Mobile, AL 36601
(251) 432-5300
rgaal@mcdowellknight.com
Counsel for SE Property Holdings, LLC

Lucas DeDeus

March 9, 2021
SCP Tracking: Centeno-2019 3rd Avenue North-Cover Orange

